CERTIFICATE OF COMPLIANCE
Case No. 19-1026
Caption: Ford Motor v. US
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 4,040 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 19, 2020.

Nadia Oswald-Hamid
Record Press, Inc.

Sworn to before me on
March 19, 2020
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2020

Notary Public

